                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

Case Number: A10040030                                                                             Page 1 of 1



                 We reviewed a declined proposal 1 and found a significant amount of text apparently copied
          from another declined NSF proposal (the Source). 2 When we contacted the PI, he admitted to the
          copying. The Pe also admitted to receiving the Source via an ad hoc reviewer, who appeared to
          have breached reviewer confidentiality. We considered this alleged breach separately. 4

                  We referred the allegation of plagiarism to the PI's university5 for an investigation. The
          university made a finding of knowing research misconduct. Its actions took into account the PI's
          background, inexperience, and lack of effect on the scientific record. The university placed a letter
          of reprimand in the PI's personnel file to be expunged after two years, required trairiirig, and assigned
          a mentor to the PI.

                 We concurred with the university's finding as described in our report (attached). We
          recommended NSF: make a finding of knowing research misconduct; require certifications and
          assurances for 2 years; require training within 1 year; and prohibit the PI from serving NSF as a
          reviewer, advisor, or consult for 3 years. NSF accepted our recommendations (attached).

                    Accordingly, this case is closed.




NSF OIG Form 2 (11 /02)
                                   NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230


                                              •\ - ~
                                         , l i.f·;     ir 7 2012

       OFFICE OF THE
         DIRECTOR




 CERTIFIED MAIL --RETURN RECEIPT REQUESTED




        Re:     Notice of Research Misconduct Determination


De a~
        In 2010, you served as a Principal Investigator ("PI") on a proposal submitted for funding
to the National Science Foundation            entitled,

As documented in the attached Investigative Report prepared by NSF's Office of Inspector
General ("OIG"), this proposal contained plagiarized material.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.l(a)(3). A finding of research misconduct ·
requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).
         Your proposal contained approximately 155 unique lines of text, and 88 embedded
 references, copied from one source document- a proposal previously submitted to NSF for
 funding. By submitting a proposal to NSF that copied the ideas or words of another without
 adequate attribution, as described in the OIG Investigative Report, you misrepresented someone
 else's work as your own. Your conduct unquestionably constitutes plagiarism. I therefore
 conclude that your actions meet the definition of"research misconduct" set forth in NSF's
 regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence, your plagiarism was committed knowingly and constituted a significant departure from
accepted practices of the relevant research community. I am, therefore, issuing a finding of
research misconduct against you.

         NSF's regulations establish three categories of actions (Group I, II, and III) that can be
taken iri response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of cmppliance with particular requirements. 45 CFR § 689.3(a)(l).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR § 689.3(a)(2). Group III actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, and our determinationthat it was committed
knowingly. I have also considered the fact that your misconduct was not part of a pattern of
plagiarism, and had no impact on the research record. In addition, I have considered other
relevant circumstances. 45 CFR § 689.3(b).

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you:

       (1) Until January 31, 2014, you must provide certifications to the OIG that any proposal
           or report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
           fabricated material;

       (2) Until January 31,2014, you must obtain, and provide to the OIG, assurances from a
           responsible official of your employer that any proposal or report you submit to NSF as
           a PI or co-PI does not contain plagiarized, falsified, or fabricated material;
        (3) By January 31,2013, you must certify completion ofthe responsible conduct of
            research training program specified by the University, and provide documentation of
            the program's contents to the OIG; and

        (4) Until January 31, 2015, you are prohibited from serving as a merit reviewer, advisor,
            or consultant for NSF.

        The certifications, assurances, and requested documentation should be submitted in
writing to OIG, Associate Inspector General for Investigations, 4201 Wilson Boulevard,
Arlington, Virginia 22230.



Procedures Governing Appeals
        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
ofthis decision, in writing, to the Director of the Foundation. 45 CFR § 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become final.

       For your information, we are attaching a       of the applicable regulations. Ifyou have
any questions about the foregoing, please call              Assistant General Counsel, at (703)
292-8060.



                                                     Sincerely,




                                                    Wanda Ward
                                                    Senior Advisor to the Director




Enclosures
- Investigative Report
- 45 C.P.R. Part 689
'   '


        CONFIDENTIAL                                                                        CONFIDENTIAL




                National Science Foundation
                 Office of Inspector General




                             .Confidential
                        Report of Investigation
                       Case Number A100040030
                                30 September 2011
                        · This Confidential Report of Investigation is provided to you
                                          FOR OFFICIAL USE ONLY.
         It contains protected personal information, the unauthorized disclosure of which may result in
         personal criminal liability under the Privacy Act, 5 U.S.C. § 552a This report may be further
        .disclosed within NSF only to individuals who must have knowledge of its contents to
         facilitate NSF's assessment and resolution of this matter. This report may be · disclosed
         outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
         552a. Please take appropriate precautions handling this confidential report of investigation.

                                                                                    NSF OIG Form 22b (12/lo)
 CONFIDENTIAL                                                        CONFIDENTIAL


                                    Executive Summary



Allegation:         Plagiarism of text from a declined NSF proposal into his own NSF proposal.

OIG Inquiry:        In a submitted proposal (the Proposal), we identified approximately 163
                    lines (155 unique) and 88 embedded references allegedly plagiarized from 1
                    declined NSF proposal (the Source). The Subject admitted that he copied
                    the Source and that he obtained the Source from his post-doctoral mentor, an
                    ad hoc reviewer of the proposal.

University          The University conducted an investigation and its committee recommended
Investigation and   fmding that the Su.bject recklessly plagiarized the Source. The Deciding
Action:             Official found the act was done knowingly. The University placed a letter of
                    reprimand in the Subject's file, required mentoring by a senior scientist for
                    one year, and required the Subject to take a research integrity· course.

OIG's Assessment:   •   The Act: Nearly verbatim plagiarism of 155 unique lines and
                        88 embedded references from a declined NSF proposal.
                    •   Intent: The Subject acted knowingly.
                    •   Standard of Proof: The preponderance of the evidence supports the
                        conclusion regarding the act and intent and a finding of research
                        misconduct.
                    •   Significant Departure: The Subject's actions are a significant
                        departure from the accepted practices of the research community.
                    •   Pattern: None apparent.

OIG                 •   Send the Subject a letter of reprimand notifying him that NSF has made
Recommendation:         a finding of research misconduct.
                    •   Require the Subject to certify completion of the RCR training program
                        specified by the University and provide documentation of the program's
                        contents within 1 year ofNSF's finding.
                    •   Require the Subject to submit certifications for 2 years.
                    •   Require the Subject to submit assurances from his employer for
                        2 years.
                    •   Bar the Subject from participating as a reviewer, advisor, or consultant
                        for NSF for a period of 3 years.




                                                                                            1
..

          CONFIDENTIAL                                                                      CONFIDENTIAL


                                                       OIG's Inguirv

                We reviewed an allegation of plagiarism in an NSF proposal 1 (the Proposal). We
         annotated the Proposal and another declined NSF proposal 2 (the Source). We identified
         approximately 163 lines (155 unique) and 88 embedded references allegedly copied from the
                                    3
         Source. We wrote to the PI (the Subject), who indicated in his reply that his mentor showed
                          4
         him the Proposal, and he took it without his mentor's knowledge. 5 His mentor6 had received the
         Source from NSF to provide an ad hoc merit review. He admitted to copying from the Source. 7

                 Given the extent of the plagiarism and the need for additional information regarding the
         Subject's acquisition of the Source (i.e., a confidential declined NSF proposal), we referred an
         investigation to the Subject's universitl (the University). 9

                                           The University's Investigation 10

              The University appointed an investigation committee (the Committee) composed of three
     faculty members to investigate the allegation following the requirements of the University
     policy 11 and 45 C.F.R. Part 689. 12 The Committee reviewed the Proposal, the Source, and the
     Subject's admission in his response to our inquiry, concluding that research misconduct had
     taken place. 13 They additionally reviewed five of the Subject's other publications, but found no
     pattern ofmisconduct. 14 Consequently, they decided that an interview ofthe Subject was not
     necessary, although the University's research integrity officer (RI0) 15 ultimately asked the
     Subject a few questions on behalf of the Committee. The meeting between the Subject and the
     RIO revealed that the Subject received no formal research misconduct training but did
     occasionally receive informal training from his mentors. 16

             The Committee found "that the misconduct was serious and a significant departure from
     normal practice." 17 Taking into account the Subject's background, experience, and the lack of
     effect on the scientific record, the Committee concluded that "there may have been insufficient




     4
       The Subject not directly implicated as an actor in the apparent breach of confidentiality of NSF's ad hoc merit
     review process. Thus, we consider the apparent breach independent of the present investigation.
     5
       Tab 3. OIG's inquiry letter to the Subject.

     6!:!!!~
              5.
     10
        Tab 6, The University's Investigation Report and Appendixes.
     11
        Tab 8, the University policy.
     12
        Tab 6 at 71.




     15······
     13
        Tab 6 at 71.
     14
        Tab 6 at 71-72.
     16
              6 at 81.
     17
          Tab 6 at 72.


                                                                                                                         2
 CONFIDENTIAL                                                              CONFIDENTIAL

                                                                                           18
 knowledge with refflard to the preparation of a grant proposal, making the act reckless." The
 Deciding Official, 1 however, found that the act was knowing, stating: "The act of copying, 'cut-
 and-paste' or otherwise usin§ someone else's manuscript as the basis for a grant proposal is done
                              2
 with knowledge of the act."

        The Committee recommended that: 1) the Subject take a training course on the
 responsible conduct of research this year; and 2) a senior faculty member: serve as a mentor to
 the Subject, with monthly meetings. 21 In addition to accepting these recommendations, the
 Deciding Official also required that a letter of reprimand be placed in the Subject's personnel file
 which would be expunged after 2 years. 22                                                        ·


                               OIG's Investigation and Assessment

          We reviewed the University report and fmd that the University investigation was
 accurate, complete, and in accordance with reasonable procedures. Although the Committee
 decided not to interview the Subject directly, the Committee's conclusions are supported by the
 Subject's admission during our inquiry and his subsequent ability to review the University report
 with the RIO. Furthermore, we wrote to the Subject to obtain any additional information or
 COIIJ.roents he may have with respect to the University report and our investigation. 23 The
 Subject replied, indicating his agreement with the University report and providing no additional
 comments?4 We also independently received co1;1fmnation from the Subject's postdoctoral
 mentor that he provided the Subject with a copy of the Source, requesting the Subject's expertise
 in assessing aspects of the proposal.

        A finding of misconduct requires that: (1) there be ·a significant departure from accepted
practices of the relevant research community, (2) the research misconduct be committed
intentionally, or knowingly, or recklessly, and (3) the al~egation be proven by a preponderance of
the evidence. 25

                                              The Act

        The Subject admitted that he copied text from the Source without attribution and that he
did not have permission to do so. Copying 163 lines (155 unique) of text with 88 embedded ·
references, including headings and internal structure, from the Source, a confidential NSF
proposal. The Committee determined the Subject's actions were a significant departure from the
accepted practices of the Subject's research community, and we concur with the Committee's
conclusion. The Subject's act meets NSF's definition of plagiarism.              ·



18
     Tab 6 at 81.
19
20
21
   Tab 6 at 72.
22
   Tab 6 at 82- 83.
23
   Tab 7 at 85.
24
   Tab 7 at 84.
25
   45 C.F.R 689.2(c).


                                                                                                   3
     CONFIDENTIAL                                                                            CONFIDENTIAL




        We concur with the University deciding official that the Subject's actions constitute a
 knowing act, demonstrated by the cut-and-paste copying of the text, including structure and
 headings.

                                                    Standard o[Proof

         The preponderance of the evidence, including the Subject's admission that he copied the
 text, supports that the Subject knowingly plagiarized from the Source in the Proposal and that his
 actions were a significant departure from the accepted practices of the relevant research
 community.

             We therefore conclude that the Subject's actions constitute research misconduct.


                                         OIG's Recommended Disposition

        When deciding what appropriate action to take upon a fmding of misconduct, NSF must
 consider:
              (1) How seriolis the misconduct was; (2) The degree to which the
              misconduct was knowing, intentional, or reckless; (3) Whether it
              was an isolated event or part of a pattern; (4) Whether it had a
              significant impact on the research record, research subjects, other
              researchers, institutions or the public welfare; and (5) Other
              relevant circumstances?6


                                                       Seriousness

        The Subject's actions constitute a substantial amount of nearly verbatim copying which
he presented to NSF as his original work. Although the large number of embedded references
lead the reader to the primary sources from which the Source author presumably derived the
intellectual content, these references as part of the body of copied text represent the intellectual
work product of the Source author(s). As such, the Subject's own knowledge of the state of the
field and ability to perform the proposed work are therefore questionable in the absence of other
evidence.

        We independently confirmed the Subject's assertion that he obtained access to the Source
via his post-doctoral mentor. The mentor had requested the Subject's assistance in providing
NSF an ad hoc review of the Source because of the Subject's particular expertise in the subject
matter. It appears that the Subject did not have sufficient guidance or knowledge with respect to
the handling of confidential NSF proposals during ad hoc merit reviews. 27

26
     45 C.F.R. 689.3(b).
27
     It was the obligation of the ad hoc reviewer (i.e., the post-doctoral mentor) to obtain prior permission from the
NSF program officer before sharing the confidential proposal with the Subject. There was insufficient evidence to


                                                                                                                         4
 CONFIDENTIAL                                                                          CONFIDENTIAL



                                     Degree to which the Act was Knowing

        The Subject's actions in this c~e were knowing, falling short of intentional (purposeful).
 We agree with the Deciding Official that the volume of the cut-and-paste copying, including the
 embedded references, is nothing less than a knowing act. Although educated outside of the U.S.,
 the Subject has served in various post-doctoral positions in the U.S. since 1998 and has
 published articles in several English language journals. 28 The University's review of other
 proposals identified no plagiarism indicating he had a working knowledge of scholarly standards.
 We conclude that his actions were clearly knoWing.

                                                Pattern o(Behavior

         We concur with the University that the Subject's act appears to be an isolated event and
 not part of a broader pattern of behavior.

                                        Impact on the Research Record

        We concur with the University that the Subject's act has no impact on the published
 research record.

                                                Recommendations

         Based on the evidence, OIG recommends that NSF:

         •  Send the Subject a letter of reprimand notifying him that NSF has made a finding of
           research misconduct. 29
         • Require the Subject to certify to the Assistant Inspector General for Investigations
           (AlGI) his completion of the RCR training program specified by the University and
           provide documentation of the program's content within 1 year ofNSF's finding.30
         • Require the Subject to submit a certification to the AlGI for each proposal, report, or
           other document he submits for 2 years from the finding that the contents are not
           plagiarized, falsified, or fabricated. 31
         • Require the Subject to submit assurances from a responsible official of his employer
           to the AlGI for each proposal, report, or other document he submits for 2 years from
           the fmding that the contents are not plagiarized, falsified, or fabricated. 32
         • Bar the Subject from participating as a reviewer, advisor, or consultant for NSF for a
           period of 3 years. 33

establish the Subject's knowledge of the confidential nature of the Proposal he received from the ad hoc reviewer.
Furthermore, the Subject has never been a reviewer for NSF.
28
   Tab 1 at 21- 22.                 .
29
   A Group I action 45 C.F.R. 689.3(a)(l)(i).
30
   This action is not specified within the regulation (See 45 C.F.R. 689.3(a)). It is similar to Group I actions 45
C.F.R. 689.3(a)(1).
31
   This action is not specified within the regulation (See 45 C.F.R. 689.3(a)). It is similar to 45 C.F.R.
689.3(a)(l)(iii).
32
   A Group I action 45 C.F.R. 689.3(a)(l)(iii).


                                                                                                                      5
     CONFIDENTIAL                                                         CONFIDENTIAL




                     The Subject's Response to OIG's Draft Investigation Report34

            The Subject responded to our draft investigation report with questions that were not
     pertinent to the substantive analysis of the evidence supporting the recommended fmding. We
     advised him that those questions were more properly directed to NSF. 35




33
   A Group III action 45 C.F.R. 689.3(a)(3)(ii).
34
   Tab 9.
35
   Tab 9.


                                                                                                   6
